In The

Supreme Court of the United States

CERTIFICATE OF SERVICE
No. 21-230

William H. Viehweg,
Petitioner
Vv.

Sirius XM Radio, Inc.
Respondent

| certify that three copies of the Reply, one copy of Certificate of Compliance, and
one copy of this Certificate of Service were served upon legal counsel for
Respondent Sirius XM Radio, Inc. on x WY wrt via United
States Mail, prepaid first class:

Mac Murray & Shuster, LLP

6525 W. Campus Oval, Suite 210

New Albany, OH 43054
| declare under penalty of perjury that the foregoing is true and correct.

Nn
Executed on wy , 2021

 
    

William H. Vienweg
Petitioner

114 W. 2nd South
Mt. Olive, Il 62069
217-999-5061,
